                                                                Issue Date
                                                                         November 8, 2007
                                                                Audit Report Number
                                                                             2008-NY-1001




TO:        Vincent Hom, Director, Office of Community Planning and Development, 2AD

FROM:
           Edgar Moore, Regional Inspector General for Audit, 2AGA

SUBJECT: The City of New Rochelle, New Rochelle, New York, Had Administrative
         Control Weaknesses in Its HOME Program


                                  HIGHLIGHTS

 What We Audited and Why

             We audited the City of New Rochelle’s (the City) administration of its HOME
             Investment Partnerships Program (HOME) in response to the Office of Inspector
             General’s work plan goal to address Community Planning and Development
             program issues and improve the U.S Department of Housing and Urban
             Development’s (HUD) execution and accountability of fiscal responsibilities. We
             selected the City based upon our risk assessment of HOME grantees monitored by
             the HUD New York City Office of Community Planning and Development and
             discussions with officials of that office who expressed concern about the City’s
             accounting for HOME funds.

             The objectives of our audit were to determine whether the City (1) committed and
             expended HOME funds in accordance with HUD rules and regulations, (2)
             disbursed funds for only eligible activities, and (3) used funds for eligible
             administrative and planning costs.

 What We Found
             The City generally committed and disbursed HOME funds in accordance with
             HOME regulations; however, there were weaknesses in its administrative
             controls. These weaknesses resulted in unsupported costs of $12,000, inadequate
           monitoring of the City’s community housing development organization, delays in
           closing out activities in HUD’s Integrated Disbursement and Information System,
           and uncertainty about the number of HOME units to be included in the City’s
           senior rental housing. Consequently, the City lacked assurance that all funds
           expended were adequately supported, its community housing development
           organization functioned effectively, and the senior rental housing project would
           comply with HOME requirements.

What We Recommend
           We recommend that the Director of HUD’s New York Office of Community
           Planning and Development require the City to submit supporting documentation
           for the $12,000 in unsupported disbursements or repay the amount from
           nonfederal funds. In addition, the City should strengthen controls over its
           community housing development organization monitoring and procedures to close
           out activities in HUD’s Integrated Disbursement and Information System.
           Further, the City should clarify the number of HOME units to be included in its
           senior rental housing project.

           For each recommendation without a management decision, please respond and
           provide status reports in accordance with HUD Handbook 2000.06, REV-3.
           Please furnish us copies of any correspondence or directives issued because of the
           audit.


Auditee’s Response
           We discussed the results of our review during the audit and at an exit conference
           on October 26, 2007, at which time written comments were requested to be
           provided by October 31, 2007. City officials provided their written comments on
           October 30, 2007. City officials agreed with our recommendations and have
           begun to implement some of the suggested actions. The complete text of the
           City’s response, along with our evaluation of that response, can be found in
           appendix B of this report.




                                            2
                            TABLE OF CONTENTS

Background and Objectives                                                     4

Results of Audit
      Finding: Weaknesses Existed in the City’s HOME Program Administrative   5
               Controls


Scope and Methodology                                                         9

Internal Controls                                                             10



Appendixes
   A. Schedule of Questioned Costs and Funds to Be Put to Better Use          12
   B. Auditee Comments and OIG’s Evaluation                                   13




                                            3
                     BACKGROUND AND OBJECTIVES

The HOME Investment Partnerships Program (HOME), authorized under Title II of the
Cranston-Gonzalez National Affordable Housing Act, as amended, is designed to create
affordable housing for low-income households. The program provides formula grants to states
and localities that communities use, often in partnership with local nonprofit groups, to fund a
wide range of activities that build, buy, and/or rehabilitate affordable housing for rent or
homeownership or provide direct rental assistance to low-income people. Program regulations
are found in the HOME Investment Partnerships Program Final Rule at 24 CFR (Code of
Federal Regulations) Part 92 and HUD program guidance as contained in the guidebook, entitled
Building HOME, dated February 2006.

The City of New Rochelle (the City) makes HOME funds available for affordable housing
through construction of new homes for first-time homebuyers and senior rental units. The City
has not used HOME funds for tenant-based rental assistance, homeowner rehabilitation, or rental
rehabilitation programs. In 1999, the City began work on the West End 2000 Affordable
Housing Project, which contemplated the construction of 63 townhomes for homeownership and
102 senior rental units. The City entered into agreements with the New Rochelle Community
Housing Development Organization, a community housing development organization, to serve
as the developer of the West End 2000 Affordable Housing Project.

The City’s West End 2000 Affordable Housing Project was initially established in 2000 as one
activity in HUD’s Integrated Disbursement and Information System. However, in 2006 HUD
required that this activity be separated into distinct activities to comply with HOME
requirements that costs be allocated between homeowner and rental housing unit activity.
Accordingly, two activities were established—Phase I, construction of 25 townhomes (Activity
#305), and Phase II, construction of 102 senior rental units (Activity #610). A third phase is
being considered for the construction of the remaining planned townhomes.

Major activity during our audit period included Phases I and II of the West End 2000 Affordable
Housing Project. HOME funds have been used for site acquisition, resident relocation,
demolition, and construction of the units under Phase I and Phase II; the units in Phase I closed,
and construction began on Phase II.

The City was awarded approximately $2 million in HOME funds for our audit period, January 1,
2004, through December 31, 2006, and disbursed approximately $1.08 million during that
period. The project has been supplemented with funds from a HUD Special Grant, McKinney
Act funds, and state and county funds.

Our audit objectives were to determine whether the City (1) committed and expended HOME
funds in accordance with HUD rules and regulations, (2) disbursed funds for only eligible
activities, and (3) used funds for eligible administrative and planning costs.




                                                4
                                RESULTS OF AUDIT

Finding: Weaknesses Existed in the City’s HOME Program
          Administrative Controls
While the City generally committed and disbursed HOME funds in accordance with HOME
regulations, there were weaknesses in program administrative controls. These weaknesses
resulted in unsupported costs of $12,000, inadequate monitoring of the City’s community
housing development organization, delays in closing out activity in HUD’s Integrated
Disbursement and Information System, and uncertainty about the number of HOME units to be
included in the senior rental housing project. These weaknesses resulted from the lack of a
formal monitoring plan and inadequate resource allocation at the community housing
development organization. Consequently, the City lacked assurance that funds were expended
for eligible activities, its community housing development organization functioned effectively,
information entered into HUD’s Integrated Disbursement and Information System was accurate,
and its senior rental housing project would comply with HOME requirements.


 Unsupported Costs of $12,000

              The City disbursed $12,000 for housing counseling workshops for older adult
              homeowners and first-time homebuyers. Regulations at 24 CFR 92.206(D)(6)
              provide that housing counseling may be charged to project costs provided the
              participants become the owners or tenants of the HOME-assisted project.
              Additionally, regulations at 24 CFR 92.508(5) (ii) require that documentation
              support HOME funds disbursed.

              The City established an Activity #504 in HUD’s Integrated Disbursement and
              Information System for housing counseling workshops. However, documentation
              provided to support this activity was inadequate. The documentation did not
              identify the number of participants attending the workshops or whether they were
              the purchasers of HOME-funded units. Consequently, the City could not assure
              HUD that this disbursement complied with HUD regulations.
Inadequate Community
Housing Development
Organization Monitoring

              The City’s monitoring of its community housing development organization did
              not comply with HOME regulations. Regulations at 24 CFR 92.504(a) require
              that the City monitor its community housing development organization and
              conduct a performance review at least annually. Additionally, 24 CFR 92.508(4)




                                               5
            (iv) requires that the City maintain records to ensure that the community housing
            development organization complies with HOME regulations.

            The City did not conduct a performance review of its community housing
            development organization in 2004 and 2006. While it did conduct a review in
            2005, a report was never finalized and issued to the community housing
            development organization. Therefore, the City did not comply with the
            requirement to annually conduct performance reviews. Consequently, the City
            could not assure HUD that its community development housing organization
            operated effectively.

            In response to a HUD monitoring report on the City’s performance, in 2006 the
            City contracted with a consultant to evaluate its monitoring of the community
            housing development organization, assess the capacity of the community housing
            development organization, and properly allocate costs between the West End
            2000 Affordable Housing Project townhomes and senior rental units to comply
            with HUD requirements. The consultant’s draft report made recommendations on
            how the City could strengthen its own monitoring and identified ways in which
            the community housing development organization could increase its capacity.
            City officials stated that they would incorporate these recommendations into a
            revised monitoring plan. In the interim, the City completed a performance review
            of its community housing development organization in May and June 2007, while
            we were conducting our audit, and issued a report to the community housing
            development organization on July 19, 2007.

Activities Not Closed Out in a
Timely Manner
            Regulations at 24 CFR 92.502(d) provide that project completion information
            should be entered into HUD’s Integrated Disbursement and Information System
            or otherwise be provided within 120 days of the final project drawdown. The
            City did not close out two activities within the required timeframe—Activities
            number 305, townhomes, and 504, housing workshops. City officials stated that
            they lacked proper documentation to close out these activities within the required
            timeframe. While the final drawdown for Activity #305 was made on January 13,
            2005, officials stated that documentation to close out the activity would not
            become available until the buyers closed on the townhomes. All buyers closed on
            the townhomes by the end of July 2007. If the City had retained some HOME
            funds to disburse upon successful completion of the townhome closing, it would
            have been able to close out Activity #305 in compliance with regulations. City
            officals completed the close out of Activity #305 on September 6, 2007 in HUD’s
            Integrated Disbursement and Information System. As discussed previously, the
            City did not collect and maintain proper documentation to close out Activity
            #504.




                                             6
 Uncertainty about the Number
 of Planned HOME Units

             The City entered into a HOME agreement in December 2006 with its community
             housing development organization for the construction of senior rental units.
             Construction was scheduled to be completed by February 2008, and marketing
             was scheduled to begin in September 2007. However, there was uncertainty over
             the nature of the project and the number of HOME units planned. The agreement
             referred to the development as an assisted living facility, rather than a senior
             rental project. When we inquired about the nature of the development, officials
             initially stated that the development included assisted services, such as meals and
             housekeeping, but later stated that these services would be provided as an option.
             In addition, the HOME agreement specified that all units in the senior
             development would be HOME units. However, officials later stated that the
             number of HOME units was uncertain and needed to be determined. The plans
             detailing the number of HOME units should be finalized so the marketing of the
             units can start. HOME regulations at 24 CFR 92.252(b) require that at least 20
             percent of HOME-assisted units be occupied by very low-income families.
             Therefore, contractual and funding arrangements should be consistent with the
             project’s scope.

Conclusion
             The City generally committed and disbursed HOME funds in accordance with
             HOME regulations; however, there were weaknesses in administrative controls.
             These weaknesses resulted from the lack of a formal monitoring plan and
             inadequate resource allocation at the community housing development
             organization. Consequently, the City lacked assurance that funds were expended
             for eligible activities, its community housing development organization
             functioned effectively, information entered into HUD’s Integrated Disbursement
             and Information System was accurate, and its senior rental housing project would
             comply with HOME requirements.

Recommendations

             We recommend that the Director of the New York Office of Community Planning
             and Development instruct the City to

             1A. Provide documentation for the $12,000 in unsupported disbursements made
                 related to workshops so that the eligibility of these costs can be determined. If
                 the costs are determined ineligible, the City should provide reimbursement
                 from nonfederal funds.



                                               7
1B. Strengthen controls over the disbursement of HOME funds to ensure that
    costs are properly supported.

1C. Strengthen controls over its community housing development organization
    monitoring to ensure that annual reviews are conducted and adequately
    documented in accordance with HUD regulations and that the monitoring
    plan reflects the recommendations of its consultant.

1D. Ensure that its recent monitoring report and the consultant’s
    recommendations designed to increase the capacity of its community
    housing development organization are implemented.

1E.   Strengthen controls over the disbursement of HOME funds to ensure that
      activities are closed out in HUD’s Integrated Disbursement and Information
      System within the required timeframes.

1F. Ensure that contracts and funding agreements accurately reflect the number
    of HOME units to be developed in Phase II of the West End 2000 Affordable
    Housing Project.




                                8
                        SCOPE AND METHODOLOGY

The audit covered the period from January 1, 2004 through December 31, 2006, and was
expanded as necessary. The City was awarded approximately $2 million in HOME funds for our
audit period, and disbursed approximately $1.08 million during that period. To accomplish our
audit objectives, we

   •   Reviewed applicable federal regulations relating to the administration of the HOME
       program and conducted interviews with and inquires of officials from the City and HUD’s
       Office of Community Planning and Development.

   •   Reviewed HUD files related to the City’s HOME program including the five-year
       consolidated plan, consolidated annual performance and evaluation report, action plans,
       correspondence files, and HUD’s monitoring reports.

   •   Reviewed the fiscal years 2004 and 2005 independent public accountant’s audit report
       covering the City’s HOME program.

   •   Reviewed administrative drawdowns to determine whether the City complied with the 10
       percent limit on disbursing funds for administrative and planning costs, and analyzed a
       nonstatistical sample of drawdowns totaling $42,654 to ensure that the drawdowns were for
       eligible costs.

   •   Reviewed HOME matching funds to ensure that the City complied with the 25 percent
       matching fund requirement.

   •   Reviewed the City’s agreements with its community housing development organization for
       compliance with HUD’s HOME regulations.

   •   Reviewed the City’s monitoring of its community housing development organization for
       compliance with HOME regulations.

   •   Reviewed a nonstatistical sample of $337,629 in project costs to ensure that HOME funds
       were disbursed for eligible costs.

   •   Reviewed a nonstatistical sample of 10 of 25 town home buyer files to ensure compliance
       with HUD’s income limits and other requirements.

We performed our audit fieldwork between May and August 2007 at the City of New Rochelle’s
Department of Development, located at 515 North Avenue, New Rochelle, New York. We
performed our review in accordance with generally accepted government auditing standards.




                                                9
                                INTERNAL CONTROLS

Internal control is an integral component of an organization’s management that provides
reasonable assurance that the following objectives are being achieved:

   •   Effectiveness and efficiency of operations,
   •   Reliability of financial reporting, and
   •   Compliance with applicable laws and regulations.

Internal controls relate to management’s plans, methods, and procedures used to meet its
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls
                 We determined the following internal controls were relevant to our audit objectives:

             •     Program operations - Polices and procedures that management has implemented
                   to reasonably ensure that a program meets its objectives.

             •     Validity and reliability of data - Policies and procedures that management has
                   implemented to reasonably ensure that valid and reliable data are obtained,
                   maintained, and fairly disclosed in reports.

             •     Compliance with laws and regulations - Policies and procedures that management
                   has implemented to reasonably ensure that resource use is consistent with laws
                   and regulations.

             •     Safeguarding resources - Policies and procedures that management has
                   implemented to reasonably ensure that resources are safeguarded against waste,
                   loss, and misuse.

                 We assessed the relevant controls identified above.

                 A significant weakness exists if management controls do not provide reasonable
                 assurance that the process for planning, organizing, directing, and controlling
                 program operations will meet the organization’s objectives.




                                                  10
Significant Weaknesses


           Based on our review, we believe the following item is a significant weakness:

               •   The City did not have adequate controls to ensure compliance with laws and
                   regulations when HOME funds were disbursed for costs without adequate
                   supporting documentation, oversight of its community housing development
                   organization was not adequately documented, the nature and scope of the
                   senior rental housing project was not clearly defined, and activities were not
                   closed out in a timely manner in HUD’s Integrated Disbursement and
                   Information System (see finding).




                                             11
                                   APPENDIXES

Appendix A

              SCHEDULE OF QUESTIONED COSTS
             AND FUNDS TO BE PUT TO BETTER USE

                               Recommendation        Unsupported
                                      number                  1/
                                     1A                    $12,000


1/   Unsupported costs are those costs charged to a HUD-financed or HUD-insured program
     or activity when we cannot determine eligibility at the time of audit. Unsupported costs
     require a decision by HUD program officials. This decision, in addition to obtaining
     supporting documentation, might involve a legal interpretation or clarification of
     departmental policies and procedures.




                                            12
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION

Ref to OIG Evaluation   Auditee Comments




Comment 1




                         13
        AUDITEE COMMENTS AND OIG’S EVALUATION

Ref to OIG Evaluation                Auditee Comments




Comment 2




                        OIG Evaluation of Auditee Comments




                                       14
                         OIG Evaluation of Auditee Comments

Comment 1   City officials agreed with the recommendation and have taken action to
            implement the recommendation.

Comment 2   City officials agreed and plan to take action to implement the recommendation.




                                           15
